U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

July 9, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Raynal King and Howard R. Ross, III v. United States, No. 20-7609
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 25,
2021. The government’s response is now due, after two extensions, on July 14, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including August 27, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of
previously assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-7609
KING, RAYNAL AND ROSS, HOWARD R., III
USA

DAN GOLDBERG
FEDERAL PUBLIC DEFENDER
1000 WALNUT SUITE 600
KANSAS CITY, MO 64106
816-471-8282
DAN_GOLDBERG@FD.ORG

